                           CLOSEOUT FOR M97100042

        On 3 1 October 1997, OIG received an allegation from an oMicer of an institution1
that the subject2 may have committed misconduct in science. It was alleged that the
subject had, without permission, taken potentially hazardous materials from a controlled
environment facility, and spoken disparagingly of the quality of those materials in public
settings, so as to discredit the director3 of the facility from which the materials were
taken. The subject, an employee of another federal agency, was listed as a "cooperator"
on the director's NSF grant.4 Letters of cooperation attached to the grant indicate a
reciprocal arrangement-the subject planned to make her facilities available to the
                                                                                                I
project, as well as carry out work in the director's facility.                                  I
                                                                                                I
                                                                                                I
         The transfer of the materials took place after the subject inquired about              1

conducting an experiment with the materials in the director's facility. The director recalls
telling the subject that the materials were contaminated and had lost potency, and that it      I
                                                                                                I
would be necessary for the subjedt to repeat any experiments on pure, potent materials.         I
Nonetheless, the subject conducted the experiment on the materials, and called the
director to inform her that she had taken some of the materials with her to study. At that
time the director did not make an issue of the subject's transfer of materials. However,
                                                                                                i~
she believed the subject should have obtained permission as a matter of trust and
professional courtesy.                                                                          I
                                                                                                I
        The issue did not resurface until nearly a year and a half later, when the subject
made public statements that were quoted in the press, regarding the quality of the
materials. The director believed that the subject's characterization of the materials was
unfair, and a deliberate attempt to discredit the director and her laboratory. Initially, the
director complained about the matter to the subject's supervisor. However, the subject's
supervisor responded that the entire matter was a misunderstanding stemming from
                                                                                                1
                                                                                                1

misquotations in the press. Thereafter, the director stated that she wished to pursue the
matter as a misconduct-in-science issue, unless the subject issued a formal, public
apology. We assessed the matter and concluded that however unpleasant or even unfair
the subject's public statements may have been, this controversy was a scientific
disagreement, not misconduct in science.

        Our analysis of whether the removal of the materials was misconduct in science
focuses on three points: whether removal of the materials was hazardous, whether the
subject failed to obtain required permission to remove the materials, and whether removal
of the materials violated any regulations.

       As discussed above, the director of the facility recalls telling the subject that the
materials were not very potent and rapidly lose potency when removed from a
stimulating environment. Accordingly, we conclude that the hazard posed by the




                                   Page 1 of 2                               M97-42
                          CLOSEOUT FOR M97100042

materials was much less than that of the pure materials that the facility was designed to
accommodate.

        Under the laboratory's protocols, permission to remove materials and a record of
the transfer were required for potent materials, but not for materials that had lost their
potency, for which no records were kept. There was no logbook entry by the subject
during the time period in question. The subject admits taking the materials, but asserts
that no permission was required because removal of the materials was part of a series of
exchanges between the laboratories. While the director characterizes these exchanges as
infrequent, she acknowledges that there had been exchanges between the laboratories of
materials that had lost their potency.

        We note that the subject was a cooperator on the project. A letter from the subject
that was included in the appendix to the director's NSF proposal states that many of the
experiments, especially those involving materials that had lost their potency, would be
conducted in the subject's laboratory. In our view, the letter contemplates the transfer of
materials, and does not rule out the transfer of potent materials. Certainly, the prudent,
collegial practice would have been to obtain permission to remove the materials and to
enter any transfer into the log kept for that purpose. However, under the circumstances
discussed above, we conclude that the subject's failure to obtain permission and record
the transfer of materials, while uncollegial and demonstrating poor judgment, was not
misconduct in science.

       Furthermore, the transport of the materials did not violate any regulations
governing the transport of such materials.

        In sum, we conclude that the subject's removal of the materials without entering
                                                                                              .
the removal in the log or obtaining permission was not the best practice, but broke no
regulations nor unequivocally violated the laboratory's protocols. We conclude that the
removal of the materials did not rise to the level of misconduct in science. Accordingly,
this case is closed and no further action will be taken.

cc:    Integrity, IG




                                  Page 2 of 2
